Audit Report




OIG-12-007
SAFETY AND SOUNDNESS: Failed Bank Review of
BankMeridian, National Association
November 9, 2011




Office of
Inspector General
DEPARTMENT OF THE TREASURY
                                       DEPARTMENT OF THE TREASURY
                                             W ASHINGTON, D.C. 20220




     OFFICE O F
INSPECTOR GE N ERA L


                                              November 9, 2011


              OIG-12-007

              MEMORANDUM FOR JOHN G. WALSH
                             ACTING COMPTROLLER OF THE CURRENCY

              FROM:                 Susan Barron /s/
                                    Director, Banking Audits

              SUBJECT:              Failed Bank Review of BankMeridian, National Association,
                                    Columbia, South Carolina


              This memorandum presents the results of our review of the failure of BankMeridian,
              National Association (BankMeridian), located in Columbia, South Carolina.
              BankMeridian, a community bank, commenced operations in May 2006 and
              operated in three locations: a main branch in Columbia and two branches in Hilton
              Head and Spartanburg, South Carolina. The Office of the Comptroller of the
              Currency (OCC) closed BankMeridian and appointed the Federal Deposit Insurance
              Corporation (FDIC) as receiver on July 29, 2011. As of March 31, 2011,
              BankMeridian had approximately $239.8 million in total assets. As of August 31,
              2011, FDIC estimated that the loss to the Deposit Insurance Fund was $65.4
              million.

              Because the loss to the Deposit Insurance Fund is less than $200 million, as set
              forth by section 38(k) of the Federal Deposit Insurance Act, we conducted a review
              of the failure of BankMeridian that was limited to (1) ascertaining the grounds
              identified by OCC for appointing the FDIC as receiver and (2) determining whether
              any unusual circumstances exist that might warrant a more in-depth review of the
              loss. In performing our review we (1) examined documentation related to the
              appointment of FDIC as receiver, (2) reviewed OCC reports of examination for the
              5 year period before the bank’s failure, and (3) interviewed OCC personnel.

              We conducted this performance audit during August and September 2011 in
              accordance with generally accepted government auditing standards. Those
              standards require that we plan and perform the audit to obtain sufficient,
              appropriate evidence to provide a reasonable basis for our findings and conclusions
              based on our audit objectives. We believe that the evidence obtained provides a
              reasonable basis for our findings and conclusions based on our audit objectives.
OIG-12-007
Page 2

Causes of BankMeridian’s Failure
OCC appointed FDIC as receiver based on grounds that included the following: (1) the
bank had experienced a substantial depletion of assets or earnings due to unsafe or
unsound practices, (2) the bank’s losses depleted all or substantially all of its capital
and there was no reasonable prospect for the bank to become adequately capitalized
without federal assistance, and (3) the bank was critically undercapitalized.

The primary causes of BankMeridian’s failure were excessive concentrations in
commercial real estate loans; inadequate credit risk management practices; and an
overly aggressive growth strategy funded principally by non-core funding sources,
including uninsured time deposits, Federal Home Loan Bank advances, purchased
federal funds, and brokered deposits. Since inception, the bank’s board and
management focused the bank’s growth in construction and development loans
and speculative land investments. However, the bank’s board and management
failed to ensure that the bank had prudent underwriting standards, effective
concentration and credit risk management, appropriate board oversight, and
reasonable liquidity and interest rate risk management. The bank’s board and
management took only minimal measures to correct the bank’s deficient condition,
resulting in poor asset quality, losses, and ultimately, BankMeridian’s failure.

Conclusion
Based on our review of the causes of the BankMeridian’s failure and the grounds
identified by OCC for appointing FDIC as receiver, we determined that there were
no unusual circumstances surrounding the bank’s failure or the supervision
exercised by OCC. Accordingly, we have determined that a more in-depth review of
this bank’s failure by our office is not warranted.

We provided a draft of this memorandum to OCC management for comment. In its
response, OCC stated that it agreed with our conclusion as to the causes of the
failure of BankMeridian and that it had no concerns with our determination that an
in-depth review of the bank’s failure is not warranted. The response is provided as
Attachment 1. A list of the recipients of this memorandum is provided as
Attachment 2.

We appreciate the courtesies and cooperation provided to our staff during the
audit. If you have any questions, you may contact me at (202) 927-5776 or
J. Mathai, Audit Manager, at (202) 927-0356.

Attachments
         OIG-12-007

       Attachment 1
Management Response
                                                   OIG-12-007

                                                 Attachment 2
                                                   Distribution




Department of the Treasury

   Deputy Secretary
   Office of Strategic Planning and Performance Management
   Office of Accounting and Internal Control

Office of the Comptroller of the Currency

   Acting Comptroller of the Currency
   Liaison Officer

Office of Management and Budget

   OIG Budget Examiner
